               Department of Veterans Affairs
               Office of Inspector General




                 Office of Healthcare Inspections

Report No. 13-04195-180


               Healthcare Inspection

       Quality of Care Concerns 

    Hospice/Palliative Care Program 

    VA Western New York Healthcare 

                System 

          Buffalo, New York 





June 9, 2014


                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations:
                    Telephone: 1-800-488-8244
                     E-Mail: vaoighotline@va.gov
                      Web site: www.va.gov/oig
    Quality of Care Concerns, Hospice/Palliative Care Program, VA Western New York HCS, Buffalo, NY


                                 Executive Summary 

The VA Office of Inspector General Office of Healthcare Inspections conducted an
inspection in response to allegations that staff prematurely referred critically ill patients in
the intensive care unit (ICU) to the Hospice/Palliative Care Program at the VA Western
New York Healthcare System, Buffalo, NY for hospice care and that providers
inappropriately prescribed opioid medications to sedated patients receiving hospice care.
Because the system predominantly provides hospice care in the community living center
(CLC), we expanded our review to include CLC patients as well as those who received
hospice care in the ICU.

We did not substantiate the allegations that staff prematurely referred ICU patients to
palliative care or that sedated ICU patients received opioid medications that were
inappropriate.

We found that because providers in the CLC used narrative text orders for dose increase
instructions, pharmacy and on-call physicians were, at times, unaware of opioid medication
dose increases made by the CLC nursing staff. In addition, narrative text orders related to
opioid infusions placed responsibility for dose increases solely with nursing and lacked
recognition of drug pharmacokinetics. Portions of required nursing documentation of
patient pain assessments and reassessments were lacking and scanning of paper opioid
infusion records was incomplete in both the CLC and ICU.

We recommended that the VA Western New York Healthcare System Director strengthen
processes in the CLC to prevent the use of narrative text orders for medication dosing
instructions and ensure that opioid titration orders in the CLC contain titration parameters.
We also recommended that nursing pain assessment documentation adhere to Veterans
Health Administration, Veterans Integrated Service Network, and local policies and that
copies of paper records are available in electronic health records.

Comments
The Veterans Integrated Service Network and Facility Directors concurred with our
recommendations and provided an acceptable action plan. (See Appendixes A and B,
pages 11–14 for the Directors’ comments.) We will follow up on the planned actions until
they are completed.




                                                           JOHN D. DAIGH, JR., M.D.
                                                          Assistant Inspector General for
                                                            Healthcare Inspections




VA Office of Inspector General                                                                    i
       Quality of Care Concerns, Hospice/Palliative Care Program, VA Western New York HCS, Buffalo, NY


                                                Purpose 

The VA Office of Inspector General (OIG) Office of Healthcare Inspections conducted an
inspection in response to allegations that staff at the VA Western New York Healthcare
System, Buffalo, NY (system) prematurely referred critically ill patients in the intensive care
unit (ICU) to the Hospice/Palliative Care Program for hospice care and that providers
inappropriately prescribed opioid medications to sedated patients receiving hospice care.
Because the system predominantly provides hospice care in the community living center
(CLC), we expanded our review to include CLC patients as well as those who received
hospice care in the ICU.

                                            Background 

The system is part of Veterans Integrated Service Network (VISN) 2 and serves veterans in
central and western New York and northern Pennsylvania.

The system comprises two campuses, one located in Buffalo, NY, and one in Batavia, NY,
as well as six community based outpatient clinics. The Buffalo campus consists of a
199–bed tertiary care facility. The facility is a referral center for cardiac surgery, cardiology,
and cancer care and is affiliated with the State University of New York at Buffalo School of
Medicine and Biomedical Sciences. Other specialty services provided at the facility include
hospice/palliative care, home based primary care, dentistry, and Alzheimer’s disease and
dementia care. The Batavia campus provides geriatric and rehabilitation services,
residential post-traumatic stress disorder care for men and women, and outpatient services.

On September 18, 2013, the OIG’s Hotline Division received allegations that system staff
prematurely referred critically ill patients in the ICU to the Hospice/Palliative Care Program
for hospice care and that sedated patients receiving hospice care in the ICU received
inappropriate opioid pain medications.

Palliative Care. Palliative care is a specialized form of medical, emotional, spiritual, and
psychosocial care that emphasizes symptom control for patients with life limiting or serious
disease processes. Because patients who receive palliative care may or may not have a
time-limiting prognosis, treatment may include both comfort measures and curative
interventions.1

Hospice Care. Hospice or end-of-life care is specialized palliative care for patients with,
generally, a life expectancy of 6 months or less, who are no longer seeking curative
treatment for a terminal illness. The focus of palliative care for patients who choose
hospice is on achieving a pain-free and dignified death.




1
    VHA Directive 2008-066, Palliative Care Consult Teams, October 23, 2008.



VA Office of Inspector General                                                                      1
    Quality of Care Concerns, Hospice/Palliative Care Program, VA Western New York HCS, Buffalo, NY

The system’s Hospice/Palliative Care providers facilitate services and treatment for hospice
patients in the CLC and respond to palliative care and hospice care consults system wide.
Hospice/Palliative Care providers may provide consult services to patients on any unit and
may facilitate transfers to a hospice care bed in the CLC. According to ICU and CLC staff,
if hospice care beds are not available or a patient’s life expectancy is determined to be less
than 72 hours, patients may remain in the acute care setting with the Hospice/Palliative
Care Team acting as consultants to attending physicians.

                            Scope and Methodology 

We interviewed the complainant to clarify the allegations. We reviewed system policies,
procedures, medical by-laws, industry standards, medical literature, and ICU morbidity and
mortality statistics. We reviewed ICU consults to the Hospice/Palliative Care Program
placed during fiscal years (FYs) 2012 and 2013 and the electronic health records (EHRs) of
the 30 patients who died in the ICU during FYs 2012 and 2013 who had received a
palliative care or hospice consult.

Because the majority of patients are admitted to the CLC after being accepted into the
Hospice/Palliative Care Program, we expanded our review to include those patients. We
reviewed the EHRs of all 99 patients who died in the CLC from January 1, 2013, through
September 22, 2013.

We conducted a site visit November 4–6, 2013, and interviewed an attending physician of
the Hospice/Palliative Care Program, three ICU intensivists, the Chief of Surgery, the Chief
of Cardiology, pharmacy personnel, several nurses, and a nurse practitioner. The
Physician Director of the Hospice/Palliative Care Program was away on extended leave
and therefore unavailable for interview.

We conducted the inspection in accordance with Quality Standards for Inspection and
Evaluation published by the Council of the Inspectors General on Integrity and Efficiency.




VA Office of Inspector General                                                                   2
     Quality of Care Concerns, Hospice/Palliative Care Program, VA Western New York HCS, Buffalo, NY


                                     Inspection Results 

Issue 1: Consults

We did not substantiate the allegation that staff prematurely ordered palliative care consults
for patients in the ICU. Staff placed palliative care consults for a variety of supportive
palliative care services and not solely for hospice care.

Veterans Health Administration (VHA) defines palliative care consults as “requests by
physicians or other health care professionals to a palliative care team to assist in treating
patients who have a life-limiting or serious illness.” 2 However, consults are not restricted to
patients who have a terminal diagnosis. Palliative care treatment may include, but is not
limited to, performing physical assessments and making recommendations related to
prognosis; pain and symptom management; determining goals of care and associated
treatment decisions; advanced care planning; and psychosocial, emotional, and spiritual
support.

VHA does not provide guidance or criteria concerning when providers should order a
palliative care consult for hospice care or guidelines for palliative care consultants to
determine if hospice care is appropriate. Providers must rely on local policies and industry
standards to help make this decision. The system’s local policy defines the hospice care
patient as having a life expectancy of 3 months or less with a Karnofsky Performance
Scale3 of 40 percent or below.4 In addition, the system’s palliative care team policy
includes a list of diagnoses to assist providers in determining if a patient’s condition
warrants a palliative care consult for hospice care.5

ICU attending physicians often use the same criteria as providers in other hospital settings
to determine when palliative care consults for hospice care are appropriate. However,
because most patients in ICU are critically ill and heavily sedated, assessing for functional
status, such as the Karnofsky Performance Scale, may be difficult. To assist ICU staff in
making appropriate consults for hospice care, the palliative care industry has established
several criteria or triggers such as the number of admissions to the ICU and/or an ICU
length of stay of more than 7 days. Facilities are encouraged to tailor specific ICU criteria
from industry resources and to implement and evaluate the criteria through an organized
process involving key staff.6




2
  VHA Directive 2008-066, Palliative Care Consult Teams, October 23, 2008. 

3
  The Karnofsky Performance Scale is a functional assessment based upon a measurement of 0 to 100 percent, with

0 as death and 100 as perfect health. Hospice programs often use the scale as a predictor of end of life. 

4
  CM 111-28, Admission Criteria to Community Living Center for Hospice and Palliative Care, August 1, 2011. 

5
  CM 11-049, Advanced Illness/Palliative Care Consult Team, January 28, 2013. 

6
  Judith Nelson, MD, et al., Choosing and Using Screening Criteria for Palliative Care Consultation in the ICU: A 

Report From the Improving Palliative Care in the ICU Advisory Board (IPAL-ICU), Critical Care Medicine Journal,

41 (October 2013): 2319 ̶ 2323. 




VA Office of Inspector General                                                                                   3
       Quality of Care Concerns, Hospice/Palliative Care Program, VA Western New York HCS, Buffalo, NY

To ensure that providers appropriately identify hospice patients, the system’s ICU recently
instituted a procedure based on the industry standard that patients receive a palliative care
consult after 7 days of care in the ICU. According to interviews with staff and physicians,
however, the development of the procedure did not include discussion with or input from all
of the ICU attending and sub-specialty physicians. Shortly after instituting the new
procedure, the Chief of Surgery started having weekly meetings with palliative care and
ICU attending and subspecialty physicians to foster communication concerning this
procedure and the initiation of palliative care consults.

Patient Record Review. We reviewed the EHRs of all 130 patient deaths that occurred in
the ICU during FYs 2012 and 2013. We identified that 43 of the 130 patients had received
palliative care consults; however, 13 of these consults were not for hospice care but for
other reasons, such as completion of advance directives.

Prior to ordering consults for the 30 patients in ICU who received hospice care, ICU
attending physicians documented prognosis, medical progress, co-morbidities, and, if
appropriate, progress towards weaning from mechanical ventilation. We also found that
each consult completed by the palliative care physicians included a Karnofsky Performance
Scale assessment of 40 percent or less and a review of the patient’s history and prognosis.
All 30 patients had several life threatening issues and died within 48 hours of admission to
hospice care.

The majority of patients, 87 of 130 (67 percent), who died in the ICU during the review
period did not have palliative care consults ordered. In addition, 13 of 43 (30 percent) of
the palliative care consults were not for hospice care.

Issue 2: ICU Pain Medication

We did not substantiate that providers inappropriately prescribed opioid medications to
sedated patients receiving hospice care.

VHA defines an ICU as a special care unit dedicated to the management of acute illnesses,
injuries, or post-operative care in which life or organ function may be in jeopardy. An ICU
provides a higher level of medical services, medical technology, and staffing compared with
other medical or surgical units.7 Patients generally require hourly monitoring and treatment
and may require mechanical ventilation. In addition, patients are often unable to
communicate issues such as anxiety and pain. To promote patient comfort and safety,
ICUs commonly institute sedation and analgesic protocols that include frequent,
evidenced-based assessments for pain, anxiety, and agitation; treatments that use both
opioids and sedatives; and algorithms that direct drug escalation and de-escalation based




7
    VHA Handbook 1101.05, Emergency Medicine Handbook, May 12, 2010.



VA Office of Inspector General                                                                      4
     Quality of Care Concerns, Hospice/Palliative Care Program, VA Western New York HCS, Buffalo, NY

on the assessments.8 These protocols utilize different types of assessment scales to
accommodate those who can communicate and those who cannot communicate their
distress or pain.9

When hospice care is instituted in the ICU, patients not only cope with the suffering and
distress caused by terminal illness symptoms, but also may have severe distress when
mechanical ventilation is discontinued. Because patients may experience severe pain
while sedated, and pain medications, such as opioids, do not usually induce and maintain
sleep or sedation, ICU staff often continue to use both sedation and pain medications to
ensure the patient’s comfort during this care. The goal, whether the patient is in the ICU or
a Hospice care unit, is to prevent patient suffering and distress; thus, using both types of
medications is often necessary to accomplish this goal. Doses for both types of
medications are titrated to achieve comfort based upon patient assessments and
symptoms.10

Local policies include pain management,11 sedation and analgesic protocols,12 and medical
management in situations where providers withhold or withdraw life-sustaining treatment at
the request of patients or their designated proxies.13 All of these policies stress specific
assessment criteria and individual care planning using measurement tools for pain, anxiety,
and agitation. To enhance ICU management of a patient’s pain and other symptoms, the
recently drafted ICU policy directly links industry pain and sedation measurement tools with
updated algorithms to control a patient’s pain, agitation, and anxiety.14

We reviewed the EHRs of all 30 patients who died while receiving hospice care in the ICU
during FYs 2012 and 2013. Discontinuation of mechanical ventilation was included in the
hospice care plans for 18 of the 20 patients who had mechanical ventilation. All 18 patients
had sedation and pain medications or protocols ordered. Two patients died prior to
discontinuation of their mechanical ventilation; however, they received appropriate pain
medications and/or had appropriate sedation protocols ordered. The 10 patients who did
not have mechanical ventilation received medications for pain and agitation as needed.
Medications varied depending on the clinical assessments made by attending physicians.




8
  William D Schweickert, John P Kress, Strategies to Optimize Analgesia and Sedation, Critical Care 2008, 

12 (Supplement 3):S6.

9
  VHA Directive, 2009-053, Pain Management, October 28, 2009. 

10
   E. Kompanije, B. Van Der Hoven and J. Bakker, Anticipation of distress after discontinuation of mechanical

ventilation in the ICU at the end of life, Intensive Care Med 2008 September; 34 (9): 1593-1599.

11
   CM 11-59, Pain Management, February 1, 2011. 

12
   CM 11-16, Intensive Care Unit, June 1, 2012. 

13
   CM 11-73, Comfort Measures and Medical Management in Situations Where Life-Sustaining Treatment is 

Withheld or Withdrawn, September 1, 2011.

14
   CM 11-16 Revision Draft, Intensive Care Unit, proposed October 1, 2013.




VA Office of Inspector General                                                                                   5
     Quality of Care Concerns, Hospice/Palliative Care Program, VA Western New York HCS, Buffalo, NY

Issue 3: Opioid Infusion Orders in the CLC

The EHRs of hospice patients receiving care in the CLC did not always contain current
information regarding increases in opioid infusion rates thus potentially compromising pain
control.

Often pain management for hospice patients is delivered through infusions that are patient
or nurse controlled to address the timeliness, effectiveness, and safety of medication
administration. These types of infusions are administered via a patient controlled analgesia
(PCA)15 system or a nurse controlled analgesia (NCA) system where a patient’s assigned
nurse acts as an authorized agent to administer the medication.16

PCA allows patients to administer pre-determined doses of pain medication via a
programmed PCA pump. Many facilities routinely utilize PCA or NCA for post-surgical pain
management, chronic cancer pain, and/or pain associated with hospice or palliative care
diagnoses. PCA has the benefit of allowing the patient to individualize pain control to
balance pain relief with the amount of medication side effects they find tolerable.

Orders for PCA or NCA can include one or more of the following components:

     	 A loading or bolus dose is an initial dose used to bring the patient’s pain under
        immediate control.
     	 The basal or continuous infusion rate is the amount of medication continuously
        delivered to the patient at a rate sufficient to maintain pain control. A provider will
        assess whether or not a basal or continuous rate in necessary, or if pain control will
        be adequate with PRN17 doses alone.
     	 A patient demand or PRN dose refers to the amount of medication dispensed each
        time the patient or nurse activates the pump.

     	 The lockout interval refers to the required time between PRN doses when the
        patient or nurse is unable to activate the pump.

     	 Titration of a dose refers to the increase or decrease of an infusion rate based upon
        specific parameters. Local policy requires that any order for titration will contain
        parameters within which the dose will be titrated.18




15
   CM 11-61, Management of Basal Rate and Patient Controlled Opioid Infusions, May 1 2010. 

16
   VA Healthcare Network Upstate New York, Network Memorandum 10N2-125-08, Network Opioid Infusions,

March 4, 2008. 

17
   Pro re nata – according to circumstances or as necessary. 

18
   CM 119-09, Prescribing, Transcribing and Verification of Inpatient Orders and of In-Clinic Injectable Orders 

May 29, 2013. 




VA Office of Inspector General                                                                                      6
     Quality of Care Concerns, Hospice/Palliative Care Program, VA Western New York HCS, Buffalo, NY

Patients who are physically and mentally capable of using the required equipment are
eligible for PCA. VISN policy allows NCA with appropriate lockout options for patients who
are unable to use PCA and for those in the hospice setting.19

When providers enter opioid infusion orders into the Computerized Patient Record System
(CPRS), the system routinely forwards the orders to a pharmacist to review and complete.
With the exception of emergencies, all medication orders are considered incomplete prior to
the pharmacist’s review and do not appear on medication administration records for nurses
to administer. Narrative text orders are useful for communicating patient care orders to
nurses, such as instructions for oral care that are not pharmacy related. CPRS does not
automatically forward narrative text orders to pharmacy for review and narrative text orders
do not appear on medication administration records.

Pharmacy is unaware of dose increases when providers place those instructions in
narrative text orders. In addition, on-call providers renewing patient opioid infusion orders
are at risk for renewing opioid infusions at incorrect basal rates and/or PRN dosages,
compromising patient pain control.

After reviewing the EHRs of the 99 hospice and palliative care patients who died in the CLC
between January 1, 2013, and September 22, 2013, we found that 8 patients received
opioids via PCA or NCA. The EHRs of six patients included narrative text orders to
increase the NCA or PCA basal rate by a prescribed amount each time nurses
administered a specified number of PRN doses but did not specify an upper basal dose
limit. In addition to being a narrative text order, which was not available for review by
subsequent providers or pharmacy, this type of order placed full responsibility for dose
titration upon the nurse and provided no guidance regarding dose increase intervals
relative to the pharmacokinetics of the opioid being administered. Thus, nursing staff
controlled adjustments of opioid infusion basal rates without medical intervention.

In addition to issues viewing the narrative text orders, facility on-call providers and
pharmacists, unless physically on a unit at the patient’s bedside, were unable to review
paper documentation nurses used to document assessments or treatment changes. In
compliance with local policy, nurses recorded basal dose increases using a paper record
called the controlled substance infusion record (CSIR) in lieu of the bar code medication
administration (BCMA) system.20 Nurses and managers reported that the CSIRs remained
on the unit until completed or no longer in use and were subsequently scanned into each
patient’s EHR. Therefore, during the time the CSIR is on the unit, it is not available to on-
call providers or pharmacists who are using the EHR to track patient medications and
condition changes.




19
   VA Healthcare Network Upstate New York, Network Memorandum 10N2-125-08, Network Opioid Infusions,

March 4, 2008. 

20
   CM 11-61, Management of Basal Rate and Patient Controlled Opioid Infusions, May 1 2010. 




VA Office of Inspector General                                                                          7
     Quality of Care Concerns, Hospice/Palliative Care Program, VA Western New York HCS, Buffalo, NY

Because providers in the CLC used narrative text orders to instruct nurses on the increases
for opioid infusion rates, the risk existed for on-call physicians to renew opioid infusions at
incorrect rates or renew PRN doses at incorrect dosage levels thus compromising patient
pain control. Furthermore, because on-call providers who renewed expiring orders on
weekends, holidays, evenings, or nights used the latest infusion rate information
documented in the EHR, they were unaware of rate increases that nurses had documented
on the CSIRs. As a result, the possibility existed for inconsistency between the renewed
opioid infusion orders in the EHR and actual infusion rates, which would potentially
compromise pain control. Although not reflected in the EHRs we reviewed, the potential
existed for pharmacy to supply insufficient medication due to rate inconsistencies between
the EHR and the CSIR.

Issue 4: Pain Management Nursing Documentation

We found that nursing documentation of pain assessments and reassessments for non-
communicative patients was inconsistent or absent in the EHRs. In addition, we found that
CSIRs were not consistently scanned into individual EHRs.

Routine assessment for the presence of pain is required for communicative as well as non-
communicative patients. When assessing pain in non-communicative patients, nurses
observe for signs that could indicate pain. Complete pain assessment also involves
monitoring the effectiveness of pain management interventions by reassessing the patient
after the pain medication has been given. VHA and local policies require nurses to
document assessment and reassessment screenings for pain in non-communicative
patients with the code “99” to indicate that the patient is unable to communicate.21,22

To ensure that providers manage a patient’s treatment for pain appropriately, the health
record should include nursing observations, assessments, and reassessments of the
patient’s pain and reaction to pain medication.23

In addition to code 99, nursing staff are required to document their observations of non-
verbal pain behaviors such as crying, guarding,24 grimacing, irritability, moaning, or rubbing.
Documentation should also include potential causes of pain, surrogate reports of pain, and
an estimate of pain intensity. The documentation of pain behaviors and response to pain
medication helps providers assess whether current pain regimens are adequate.25

We reviewed the nursing documentation for 258 PRN pain doses recorded in BCMA as
administered to all 99 Hospice/Palliative Care patients who died in the CLC from




21
   VHA Directive 2009-053. 

22
   CM 11-59, Pain Management, February 1, 2011. 

23
   VHA Directive 2009-053, Pain Management, October 28, 2009.

24
   An involuntary reaction to protect an area of pain. 

25
   VHA Directive 2009-053. 




VA Office of Inspector General                                                                    8
     Quality of Care Concerns, Hospice/Palliative Care Program, VA Western New York HCS, Buffalo, NY

January 1, 2013, through September 22, 2013.26 Of the PRN doses reviewed,
143 (55 percent) contained code 99 as documentation of the initial pain assessment.
However, 117 (82 percent) lacked documentation in BCMA, the vital signs package, or
progress notes indicating the type of patient behavior that led the nurse to determine the
patient was in pain and required a PRN dose of pain medication. One patient had no
reassessment documented. Of the 257 pain reassessments we reviewed, 142 (55 percent)
contained code 99 as documentation of pain resolution. However, 84 (59 percent) of the
documented reassessments had no description of the behavior that led the nurse to
determine whether the patient’s pain had been adequately resolved.

We reviewed nursing documentation for 25 PRN doses recorded in the EHRs of all
30 patients who died while receiving hospice care in the ICU during FYs 2012 and 2013.27
Of the 25 PRN doses reviewed, 19 had either no assessment documented or code 99 with
no description of the patient’s behavior. Additionally, 14 pain reassessments had either no
documentation of the medication effectiveness or code 99 with no description of the
patient’s behavior at the time of the reassessment.

In addition to or in lieu of pain assessment and reassessment documentation, the ICU
Sedation and Analgesia Protocol28 required that nursing staff assess a patient’s pain using
the Richmond Agitation Sedation Scale (RASS).29 Though commonly used to assess
sedation and agitation, RASS assessments may also indicate symptoms of pain when a
patient is unconscious or unable to respond to questions. Twelve of the 15 patients who
received pain medication based upon the Sedation and Analgesia Protocol lacked
documentation of RASS assessments.

Scanning. When patients receive pain medication via PCA or NCA, local policy requires
that nurses in the ICU and CLC track the basal or continuous rates and/or PRN doses on
the CSIR. According to nursing staff on the ICU and CLC units and local policy, the CSIRs
are kept at the patient’s bedside and, once completed, are scanned into EHRs.30

We could not find a scanned copy of the CSIR in 6 of the 8 EHRs of patients who received
PCA or NCA in the CLC nor in 12 of the 15 EHRs of patients who received NCA in the ICU.

We found that ICU and CLC nursing staff did not consistently follow VHA and local policies
for assessment and reassessment of a patient’s pain, nor did they consistently document
the assessments and reassessments they completed. When documentation was
completed, it was not consistently scanned into the EHR as required by local procedures.



26
   We reviewed the first three PRN pain doses documented in BCMA for each of the 99 patients reviewed. Some

patients were administered fewer than three doses. 

27
   For ICU patients we reviewed the last three PRN doses administered. However, 12 records were missing dosage 

documentation, 8 patients had no prn pain medications ordered, and 2 patients received less than three doses. 

28
   CM 11-16, Intensive Care Unit, June 1, 2012. 

29
   RASS is a measurement tool used by clinicians to assess levels of sedation/agitation through observation.

30
   CM 11-61, Management of Basal Rate and Patient Controlled Opioid Infusions, May 1 2010 




VA Office of Inspector General                                                                                 9
    Quality of Care Concerns, Hospice/Palliative Care Program, VA Western New York HCS, Buffalo, NY

The lack of consistent documentation and information in the patient’s EHR increased the
risk that providers would not have essential information to assist them in making medical
decisions concerning a patient’s care.

                                     Conclusions 

We did not substantiate the allegations that staff prematurely referred ICU patients to
palliative care or that sedated ICU patients received opioid medications that were
inappropriate.

Palliative care consultants performed appropriate assessments to determine whether
patients should receive hospice care. The system investigated industry standards for
additional criteria to identify hospice patients and system medical leadership instituted
weekly meetings in the intensive care unit to facilitate communication and understanding
between palliative care and intensive care unit providers.

Established intensive care unit industry standards support using analgesic as well as
sedation protocols for hospice care patients whose medical care is affected by their level of
consciousness. The system’s practice to provide analgesic medications to sedated
patients fell within accepted industry standards.

Six of eight orders for opioid PCA or NCA infusions in the CLC included narrative text
orders for increasing the basal rate with no dose titration limit specified. In addition, the use
of narrative text orders placed responsibility for dose increases solely with nursing and
lacked recognition of drug pharmacokinetics.

Portions of required nursing documentation of patient pain assessments and
reassessments were lacking and scanning of paper opioid infusion records was incomplete
in the both the CLC and ICU.

                                 Recommendations 

1.     We recommended that the System Director strengthen processes in the community
living center to prevent the use of narrative text orders for opioid patient controlled
analgesia or nurse controlled analgesia and that opioid titration orders include titration
parameters.

2.     We recommended that the System Director strengthen processes to ensure that
nursing pain documentation adheres to Veterans Health Administration, Veterans
Integrated Service Network, and local policies and that copies of paper records are
available in electronic health records.




VA Office of Inspector General                                                                  10
    Quality of Care Concerns, Hospice/Palliative Care Program, VA Western New York HCS, Buffalo, NY

                                                                                       Appendix A


                            VISN Director Comments


               Department of
               Veterans Affairs                                    Memorandum


      Date:    May 8, 2014

      From:    Director, VA Healthcare Upstate New York (10N2)

   Subject:	   Healthcare     Inspection—Quality of Care   Concerns,
               Hospice/Palliative Care Program, VA Western New York
               Healthcare System, Buffalo, NY

        To:    Director, Bedford Office of Healthcare Inspections (54BN)

               Director, Management Review Service (VHA 10AR MRS OIG Hotline)


           I. 	 Thank you for the opportunity to review and respond to the subject
                report.

          II. 	 I have carefully reviewed your draft report, and I concur with the
                findings and recommendations. I have also reviewed the information
                provided by the VA Western New York Healthcare System and I am
                submitting it to your office as requested. The facility plan for
                correction is included.




VA Office of Inspector General                                                                  11
    Quality of Care Concerns, Hospice/Palliative Care Program, VA Western New York HCS, Buffalo, NY

                                                                                       Appendix B


                         System Director Comments


               Department of
               Veterans Affairs                                    Memorandum


      Date:    May 8, 2014

      From:    Director, VA Western New York Healthcare System (528/00)

   Subject:	   Healthcare     Inspection—Quality of Care   Concerns,
               Hospice/Palliative Care Program, VA Western New York
               Healthcare System, Buffalo, NY

        To:    Interim Network Director, VA Healthcare Upstate New York (10N2)


               1. Thank you for the opportunity to review and respond to the subject
                  report.

               2. I have carefully reviewed your draft report, and I concur with the
                  findings and recommendations. The facility plan for correction is
                  included.

               3. If you have any questions or need further information, please
                  contact Ms. Patricia Lind, Associate Director for Patient Nursing
                  Services, VA Western New York Healthcare System, at 716-862-
                  8537.




VA Office of Inspector General                                                                  12
    Quality of Care Concerns, Hospice/Palliative Care Program, VA Western New York HCS, Buffalo, NY


                             Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations in
the OIG report:

OIG Recommendations

Recommendation 1. We recommended that the System Director strengthen processes in
the community living center to prevent the use of narrative text orders for opioid patient
controlled analgesia or nurse controlled analgesia and that opioid titration orders include
titration parameters.

Concur

Target date for completion: June 30, 2014

System response:

   1. A work group will be chartered by May 16, 2014 and closed by June 20, 2014 to
      look at the appropriate manner in which opioid medications are ordered/re-ordered
      for administration using PCA/NCA pumps.
   2. Additionally the work group will determine a process for documentation of opioid
      dosage increases using BCMA.
   3. This work group will consist of the following disciplines: Physicians from palliative
      care and medicine, pharmacy and other staff as determined by the Chief of Staff
      and the Associate Director of Patient Nursing Services.
   4. Education will be provided to providers to ensure that the orders are correctly
      entered into CPRS.
   5. Electronic Medical Records (EMR) will be audited to determine compliance with
      CPRS order entry. Require 90% compliance for 3 consecutive months.
   6. Remedial education to CLC and ICU ward clerk and nursing staff that completed
      CSIR forms will be scanned to CPRS per VHA, VISN and local policy.
   7. The EMRs of patients receiving opioid medication per PCA/NCA will be audited for
      compliance of scanned documents to ensure that the documentation is accurate and
      complete. Require 90% compliance for 3 consecutive months.

Recommendation 2. We recommended that the System Director strengthen processes to
ensure that nursing pain documentation adheres to Veterans Health Administration,
Veterans Integrated Service Network, and local policies and that copies of paper records
are available in electronic health records.

Concur

Target date for completion: May 30, 2014


VA Office of Inspector General                                                                  13
    Quality of Care Concerns, Hospice/Palliative Care Program, VA Western New York HCS, Buffalo, NY

System response:

   1. Remedial education to CLC and ICU professional nursing staff regarding
      documenting observations for pain 99 patients according to VHA,VISN and local
      pain management policies.
   2. This education to include documentation of the following: The type of behavior that
      led the nurse to determine the patient was in pain and required medication and
      monitoring the effectiveness of the pain medication.
   3. Audit of CLC and ICU BCMA records for documentation of reason for parental
      opioid infusion.
   4. Audit of CLC and ICU BCMA records for documentation of PRN effectiveness.
      Require 90% compliance for 3 consecutive months.




VA Office of Inspector General                                                                  14
    Quality of Care Concerns, Hospice/Palliative Care Program, VA Western New York HCS, Buffalo, NY

                                                                                       Appendix C

                 OIG Contact and Staff Acknowledgments
Contact                  For more information about this report, please contact the OIG at
                         (202) 461-4720.
Contributors 	           Jeanne Martin, PharmD, Team Leader
                         Jerome Herbers, MD
                         Elaine Kahigian, RN, JD
                         Yoonhee Kim, PharmD




VA Office of Inspector General                                                                  15
    Quality of Care Concerns, Hospice/Palliative Care Program, VA Western New York HCS, Buffalo, NY

                                                                                       Appendix D

                                 Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VA Healthcare Upstate New York (10N2)
Director, VA Western New York Healthcare System (528/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Kirsten E. Gillibrand, Charles E. Schumer
U.S. House of Representatives: Chris Collins, Brian Higgins, Louise Slaughter



This report is available on our web site at www.va.gov/oig




VA Office of Inspector General                                                                  16
